C'OCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850 No. 19-847

JONATHAN REISMAN,
Petitioner,
v.
ASSOCIATED FACULTIES OF THE
UNIVERSITY OF MAINE, et al.,
Respondents.

AFFIDAVIT OF SERVICE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the Sth day of February, 2020, send out
from Omaha, NE 7 package(s) containing * copies of the BRIEF OF GOLDWATER INSTITUTE AS AMICUS CURIAE
SUPPORTING PETITIONER in the above entitled case. All parties required to be served have been served by Priority Mail.

Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
TIMOTHY SANDEFUR
JACOB HUEBERT*
SCHARF-NORTON CENTER FOR
CONSTITUTIONAL LITIGATION
AT THE GOLDWATER INSTITUTE
500 E. Coronado Rd.
Phoenix, AZ 85004
(602) 462-5000
litigation@goldwaterinstitute.org

*Counsel of Record

Counsel for Amicus Curiae Goldwater Institute

Subscribed and sworn to before me this 5th day of February, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary : ‘
State of Nebraska . Le Qudraw-
My Commission Expires Nov 24, 2020 . "

 

Notary Public

39343
 

 

Attorneys for Petitioner

Andrew Michael Grossman Baker & Hostetler LLP 202-861-1697
Counsel of Record 1050 Connecticut Avenue, N.W.
. Suite 1100
(3 copies)

Washington, DC 20036

agrossman@bakerlaw.com

Party name: Jonathan Reisman

 

 

Attorneys for Respondents

Susan P. Herman Office of the Attorney General 207-626-8814
Counsel of Record 6 State House Station

G3 copies) Augusta, ME 04333

susan.herman@maine.gov

Party name: State of Maine

Jacob Raffel Karabell Bredhoff & Kaiser, P.L.L.C. 202-842-2600
Counsel of Record 805 15th Street, N.W. Suite 1000

(3 copies) Washington, DC 20005

jkarabell@bredhoff.com

Party name: Associated Faculties of the University of Maine

Linda Dufty McGill Bernstein, Shur, Sawyer and Nelson, PA 207-228-7226
Counsel of Record 100 Middle Street
: PO Box 9729
(3 copies)

Portland, ME 04104-5029

Imcegill@bernsteinshur.com

Party name: University of Maine at Machias, the Board of Trustees of the University of Maine System

 
Other

James Gideon Abernathy Freedom Foundation 513-312-7758
Counsel of Record PO Box 552
Olympia, WA 98507
(1 copy)

JamesGAbernathy@gmail.com
Party name: Freedom Foundation

William L. Messenger c/o National Right to Work Legal Defense Foundation, 703-321-8510
Counsel of Record Inc.
8001 Braddock Road, Suite 600

(1 copy) Springfield, VA 22160

wim@nrtw.org
Party name: National Right to Work Legal Defense Foundation

Erin Elizabeth Wilcox Pacific Legal Foundation 916-419-7111
Counsel of Record 930 G Street
Sacramento, CA 95814
(1 copy)

ewilcox@pacificlegal.org

Party name: Pacific Legal Foundation

 
